Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of High-Dollar Payments for Rhode Island Medicare Outpatient Claims Processed by Pinnacle Business Solutions, Inc., for Calendar Years 2004 Through 2006
August 18, 2008 | Audit A-01-08-00512
Executive Summary
During calendar years 2004-2006, Pinnacle Business Solutions, Inc., overpaid providers in Rhode Island $141,000 for high-dollar (greater than $50,000) Medicare outpatient claims.
Complete Report
Download the complete report (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS